     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601
May 24, 2011

Report Number: A-05-09-00101

Jared A. Adair
Senior Vice President, Medicare Division
Wisconsin Physicians Service Insurance Corporation
1717 West Broadway
Madison, WI 53708

Dear Ms. Adair:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Audit of Medicare Part A Administrative Costs for the Period
November 5, 2007, Through September 30, 2008 at Wisconsin Physicians Service Insurance
Corporation. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Dave Markulin, Audit Manager, at (312) 353-1644 or through email at
David.Markulin@oig.hhs.gov. Please refer to report number A-05-09-00101 in all
correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Jared Adair


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




 AUDIT OF MEDICARE PART A
ADMINISTRATIVE COSTS FOR THE
  PERIOD NOVEMBER 5, 2007,
THROUGH SEPTEMBER 30, 2008
                 AT
    WISCONSIN PHYSICIANS
     SERVICE INSURANCE
        CORPORATION



                   Daniel R. Levinson
                    Inspector General

                        May 2011
                      A-05-09-00101
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act established the Medicare program. The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contractors,
including Part A fiscal intermediaries (FIs) that process and pay Medicare claims submitted by
health care providers. Contracts between CMS and the Medicare contractors define the functions
to be performed and provide for the reimbursement of allowable administrative costs incurred in
the processing of Medicare claims.

The legacy Medicare Part A contract between CMS and Wisconsin Physicians Service Insurance
Corporation (WPS) provides that, when claiming costs, WPS must follow cost reimbursement
principles contained in Part 31 of the Federal Acquisition Regulation (FAR) and other applicable
criteria. After the close of each fiscal year (FY), WPS submits to CMS a Final Administrative
Cost Proposal (FACP) reporting Medicare administrative costs. The FACP and supporting data
provide the basis for the CMS contracting officer and contractor to negotiate a final settlement of
allowable administrative costs.

Effective November 5, 2007, WPS assumed responsibility for processing the Part A workload,
currently known as the WPS legacy workload, previously processed by Mutual of Omaha.
During FY 2008, the WPS legacy workload included Part A providers located in 49 states. WPS
reported Medicare administrative costs totaling $59,276,946 in its FY 2008 FACP.

OBJECTIVE

Our objective was to determine whether administrative costs WPS reported on its FACP for
FY 2008 were reasonable, allowable, and allocable and in compliance with the FAR and other
applicable criteria.

SUMMARY OF FINDINGS

Administrative costs reported by WPS on its FY 2008 FACP were generally reasonable,
allowable, and allocable and in compliance with the FAR and other applicable criteria.
However, WPS reported unallowable costs totaling $945,610 because it overstated costs for
indirect costs ($871,048), outside professional services ($39,038), travel ($26,496),
miscellaneous ($7,144), and other ($1,884).

RECOMMENDATION

We recommend that WPS decrease its FY 2008 FACP by $945,610 to reflect the unallowable
costs.




                                                 i
WPS COMMENTS

In written comments on our draft report, WPS concurred with our findings regarding full-time
employees, legal services, investment administrative fees, leased vehicles, membership dues, and
lobbying costs. Regarding related-party transactions, WPS disputed the OIG computation to
reduce its costs by $28,524 and instead said the correct profit it charged to Medicare was $7,160.
WPS disagreed with our finding regarding home office costs and submitted additional
documentation to support its position. In addition, WPS did not concur with our findings
regarding consultant services, meals, gift and gift cards, and meals and beverages. WPS also
commented on misclassified equipment costs, which were acquired under a separate contract.
WPS’s comments appear in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

We reviewed WPS’s comments and analyzed the additional documentation provided and
maintain that our findings and recommendation remain valid. We will disclose the misclassified
equipment costs under a separate report of WPS’s Medicare Part B administrative costs.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION............................................................................................................. 1

           BACKGROUND ................................................................................................... 1

           OBJECTIVE, SCOPE, AND METHODOLOGY .................................................. 1
                Objective .................................................................................................... 1
                Scope .......................................................................................................... 1
                Methodology .............................................................................................. 2

FINDINGS AND RECOMMENDATION...................................................................... 2

          UNALLOWABLE COSTS .................................................................................... 3
               Indirect Costs ............................................................................................. 3
               Outside Professional Services ................................................................... 4
               Travel......................................................................................................... 5
               Miscellaneous ............................................................................................ 6
               Other .......................................................................................................... 6

          RECOMMENDATION .......................................................................................... 7

          WPS COMMENTS ................................................................................................. 7

          OFFICE OF INSPECTOR GENERAL RESPONSE .............................................. 7

APPENDIXES

          A: COSTS REPORTED ON FINAL ADMINISTRATIVE COST
             PROPOSAL BY COST CLASSIFICATION

          B: OFFICE OF INSPECTOR GENERAL RECOMMENDED COST
             ADJUSTMENTS

          C: WPS COMMENTS




                                                                    iii
                                            INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act established the Medicare program. The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contractors,
including Part A fiscal intermediaries (FIs) that process and pay Medicare claims submitted by
health care providers. Contracts between CMS and the Medicare contractors define the functions
to be performed and provide for the reimbursement of allowable administrative costs incurred in
the processing of Medicare claims.

The legacy 1 Medicare Part A contract between CMS and Wisconsin Physicians Service
Insurance Corporation (WPS) provides that, when claiming costs, WPS must follow cost
reimbursement principles contained in Part 31 of the Federal Acquisition Regulation (FAR) and
other applicable criteria. After the close of each fiscal year (FY), WPS submits to CMS a Final
Administrative Cost Proposal (FACP) reporting Medicare administrative costs. The FACP and
supporting data provide the basis for the CMS contracting officer and contractor to negotiate a
final settlement of allowable administrative costs.

Effective November 5, 2007, WPS assumed responsibility for processing the Part A workload,
currently known as the WPS legacy workload, previously processed by Mutual of Omaha.
During FY 2008, the WPS legacy workload included Part A providers located in 49 states. WPS
reported Medicare administrative costs totaling $59,276,946 in its FY 2008 FACP.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether administrative costs WPS reported on its FACP for
FY 2008 were reasonable, allowable, and allocable and in compliance with the FAR and other
applicable criteria.

Scope

Our review covered the period November 5, 2007, through September 30, 2008 (FY 2008). For
this period, WPS reported Medicare Part A administrative costs totaling $59,276,946. This total
included pension costs of $1,433,518 that we did not review because pension costs will be the
subject of a separate review. WPS reported $3,223,889 of unspent forward funding costs in its
FY 2008 FACP.

We reviewed WPS’s internal controls related to the claiming of costs on the FACP. We limited
our review of internal controls to those controls necessary to achieve our audit objective.

1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the Medicare Part A and Part B workloads to Medicare administrative contractors
(“MACs”) between October 2005 and October 2011. Accordingly, CMS must transfer all providers serviced in the
WPS legacy workload to MACs by October 2011.

                                                       1
We conducted fieldwork at WPS’s offices in Madison, Wisconsin.

Methodology

To accomplish the objective, we:

   •   reviewed applicable Federal laws, regulations, and guidelines;

   •   reviewed WPS’s contract with CMS;

   •   reviewed internal and external audit reports, including independent auditor’s reports and
       letters related to WPS’s internal controls for calendar years 2007 and 2008 and prior
       Office of Inspector General (OIG) reports for FYs 2004 through 2008;

   •   interviewed WPS officials regarding the cost accumulation processes for its FACP and
       cost allocation systems;

   •   reconciled line item expenses on the FACP and cost classification reports to WPS’s
       accounting records;

   •   tested costs for reasonableness, allowability, and allocability by reviewing contracts and
       agreements and by judgmentally selecting journal entries, invoices, expense vouchers and
       reports, payroll journals, corporate bonus plans, and personnel records; and

   •   reviewed total compensation paid to the five highest paid executives.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

Administrative costs reported by WPS on its FY 2008 FACP were generally reasonable,
allowable, and allocable and in compliance with the FAR and other applicable criteria.
However, WPS reported unallowable costs totaling $945,610 because it overstated costs for
indirect costs ($871,048), outside professional services ($39,038), travel ($26,496),
miscellaneous ($7,144), and other ($1,884) (Appendix B).




                                               2
UNALLOWABLE COSTS

Indirect Costs

Requirements

Pursuant to FAR 31.201–2 (a), “A cost is allowable only when the cost complies with all of the
following requirements: (1) Reasonableness. (2) Allocability. (3) Standards promulgated by the
CAS [cost accounting standards] Board, if applicable, otherwise, generally accepted accounting
principles and practices appropriate to the circumstances. (4) Terms of the contract …”

Pursuant to FAR 31.203(a), “For contracts subject to full CAS coverage, allocation of indirect
costs shall be based on the applicable provisions.” According to 48 CFR 9903.201-2(a), full
CAS coverage requires compliance with all of the CAS specified in 48 CFR part 9904.

Pursuant to 48 CFR § 9904.403-50(c)(1), CAS requires residual home office expenses 2 to be
allocated using the three factor formula, which consists of payroll dollars, operating revenue, and
the average net book value of tangible capital assets and inventories.

Federal regulations at 48 CFR § 9904.403-30(a)(3) state that:

         Operating revenue means amounts accrued or charge[d] to customers, clients, and
         tenants, for the sale of products manufactured or purchased for resale, for
         services, and for rentals of property held primarily for leasing to others. It
         includes both reimbursable costs and fees under cost-type contracts and
         percentage-of-completion sales accruals except that it includes only the fee for
         management contracts under which the contractor acts essentially as an agent of
         the Government in the erection or operation of Government-owned facilities. It
         excludes incidental interest, dividends, royalty, and rental income, and proceeds
         from the sale of assets used in the business.

Home Office Expenses

WPS overstated residual home office expenses by $857,239 in its FY 2008 FACP due to an
incorrect calculation used to allocate these expenses. WPS used the three factor formula to
allocate residual home office expenses. However, instead of using the revenue it received from
CMS ($149 million) for the operating revenue portion of the three factor formula, WPS used
both the revenue received from CMS plus the amount of Medicare claim benefits paid to
providers ($42 billion) in its cost allocation. As a result, the allocation percentages for the
operating revenue factors were overstated which led to WPS overstating residual home office
expenses on its FACP for FY 2008.




2
 Residual expenses are costs incurred by the home office that cannot be identified to a specific contract, group of
contracts, or company segment.

                                                          3
Full-Time Employees

WPS overstated its indirect costs on its FY 2008 FACP by $13,809, because it used an incorrect
full-time employees (FTE) allocation rate. The rate was incorrect because it was calculated
using an inaccurate FTE count.

WPS overstated indirect costs for home office cost expenses and FTE by $871,048 in its FY
2008 FACP.

Outside Professional Services

Profit Associated with Related-Party Transactions

Pursuant to Article XII.A of the Medicare Part A contract, “It is the intent of this agreement that
the Intermediary, in performing its functions under this agreement, shall be paid its costs of
administration under the principle of neither profit nor loss to the Intermediary ….”

WPS reported unallowable costs on its FY 2008 FACP that included an allocation totaling
$28,524 in profit paid to a wholly-owned subsidiary.

Consultant Services

Pursuant to FAR 31.205-33:

       (f) Fees for services rendered are allowable only when supported by evidence of
       the nature and scope of services furnished …. Evidence necessary to determine
       that work performed is proper and does not violate law or regulation shall
       include --

                 (1) Details of all agreements (e.g., work requirements, rate of
                 compensation, and nature and amount of other expenses, if any) with the
                 individuals or organizations providing the services and details of actual
                 services performed ….

WPS reported unallowable costs totaling $6,200 on its FY 2008 FACP for consultant services.
Specifically, WPS was unable to provide a contractual agreement (e.g., description of the
services, estimate of time required, rate of compensation, and termination provisions) to support
costs it allocated to Medicare. In the absence of adequate supporting documentation, the costs
are unallowable.

Legal Services

Pursuant to FAR 31.205-47(f):

       Costs not covered elsewhere in this subsection are unallowable if incurred in
       connection with - … (8) Protests of Federal Government solicitations or contract


                                                  4
         awards, or the defense against protests of such solicitations or contract awards,
         unless the costs of defending against a protest are incurred pursuant to a written
         request from the cognizant contracting officer.

WPS reported unallowable legal expenses totaling $3,805 in its FY 2008 FACP related to a
MAC bid that was protested but not requested by the CMS cognizant contracting officer.

Investment Administrative Fees

Pursuant to FAR 31.201-4:

         A cost is allocable if it is assignable or chargeable to one or more cost objectives
         on the basis of relative benefits received or other equitable relationship. Subject
         to the foregoing, a cost is allocable to a Government contract if it – (a) Is incurred
         specifically for the contract; (b) Benefits both the contract and other work, and
         can be distributed to them in reasonable proportion to the benefits received; or (c)
         Is necessary to the overall operation of the business, although a direct relationship
         to any particular cost objective cannot be shown.

WPS reported unallowable costs totaling $509 in its FY 2008 FACP for investment
administrative fees related to a 401K plan. Specifically, WPS charged the Medicare contract for
the unallowable fees for employees who did not work in the Medicare line of business.

WPS overstated outside professional services related to profit associated with related-party
transactions, consultant services, legal services, and investment administrative fees totaling
$39,038 in its FY 2008 FACP.

Travel

Leased Vehicles

Pursuant to FAR 31.205-6(m)(2), “That portion of the cost of company-furnished automobiles
that relates to personal use by employees (including transportation to and from work) is
unallowable regardless of whether the cost is reported as taxable income to the employees (see
31.205-46(d)).”

WPS reported unallowable costs totaling $25,478 on its FY 2008 FACP related to the personal
use of company-furnished leased vehicles.

Meals

FAR 31.205-14 states, “Costs of amusement, diversions, social activities, and any directly
associated costs such as tickets to shows or sports events, meals, lodging, rentals, transportation,
and gratuities are unallowable. Costs made specifically unallowable under this cost principle are
not allowable under any other cost principle.”



                                                   5
WPS reported unallowable costs totaling $1,018 in its FY 2008 FACP for meals provided during
a company Christmas party in December 2007 totaling $777 and the cost of personal meals
provided to executives who were not on travel totaling $241.

WPS overstated travel costs related to leased vehicles and meals totaling $26,496 in its FY 2008
FACP.

Miscellaneous

Gifts

Pursuant to FAR 31.205-13(b), “Costs of gifts are unallowable.”

WPS reported unallowable costs totaling $4,700 in its FY 2008 FACP for gifts and gift cards
provided to employees at social events.

Meals and Beverages

Pursuant to FAR 31.205-14, “Costs of amusement, diversions, social activities, and any directly
associated costs such as tickets to shows or sports events, meals, lodging, rentals, transportation,
and gratuities are unallowable. Costs made specifically unallowable under this cost principle are
not allowable under any other cost principle.”

WPS reported unallowable costs totaling $2,444 on its FY 2008 FACP for food and beverages
served during company social events.

WPS overstated miscellaneous costs related to gifts and meals and beverages totaling $7,144 in
its FY 2008 FACP.

Other

Membership Dues

Pursuant to FAR 31.205-43(a), costs associated with “[m]emberships in trade, business,
technical, and professional organizations” are allowable. However, FAR 31.205-14 provides
that “Costs of amusement, diversions, social activities, and any directly associated costs such as
tickets to shows or sports events, meals, lodging, rentals, transportation, and gratuities are
unallowable. Costs made specifically unallowable under this cost principle are not allowable
under any other cost principle.”

WPS reported unallowable costs totaling $1,433 in its FY 2008 FACP for membership dues to
attend social events.




                                                 6
Lobbying

Pursuant to FAR 31.205-22(a)(1), “Costs associated with the following activities are
unallowable: (1) Attempts to influence the outcomes of any Federal, State, or local election,
referendum, initiative, or similar procedure, through in kind or cash contributions, endorsements,
publicity, or similar activities ….”

WPS reported unallowable costs totaling $451 in its FY 2008 FACP for membership fees
associated with lobbying costs.

WPS overstated other costs related to membership dues and lobbying totaling $1,884 in its FY
2008 FACP.

RECOMMENDATION

We recommend that WPS decrease its FY 2008 FACP by $945,610 to reflect the unallowable
costs.

WPS COMMENTS

In written comments on our draft report, WPS concurred with our findings regarding full-time
employees, legal services, investment administrative fees, leased vehicles, membership dues, and
lobbying costs. Regarding related-party transactions, WPS disputed the OIG computation to
reduce its costs by $28,524 and instead said the correct profit it charged to Medicare was $7,160.
WPS disagreed with our finding regarding home office costs and submitted additional
documentation to support their position. In addition, WPS did not concur with our findings
regarding consultant services, meals, gift and gift cards, and meals and beverages. WPS also
commented on misclassified equipment costs, which were acquired under a separate contract.
WPS’s comments appear in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

We reviewed WPS’s comments and analyzed the additional documentation provided and
maintain that our findings and recommendation remain valid. We will disclose the misclassified
equipment costs under a separate report of WPS’s Part B administrative costs.




                                                7
APPENDIXES
        APPENDIX A: COSTS REPORTED ON FINAL ADMINISTRATIVE COST 

                    PROPOSAL BY COST CLASSIFICATION 



         Cost Category                                  Total Costs Claimed
         Salaries/Wages                                               $25,835,546
         Fringe Benefits                                               10,627,100
         Facilities or Occupancy                                        2,953,796
         Electronic Data Equipment                                      3,666,531
         Subcontractors                                                10,680,615
         Outside Professional Services                                  2,592,013
         Telephone & Telegraph                                              4,822
         Postage & Express                                                216,435
         Furniture & Equipment                                          1,103,318
         Materials & Supplies                                             142,876
         Travel                                                           704,908
         Return on Investment 1
         Miscellaneous                                                         °
                                                                          336,632
         Other                                                            203,896
         Subtotal                                                      59,068,488
         Other Adjustments (Credits)                                  (3,015,431)
         Total Costs                                                 $56,053,057
         Forward Funding                                                3,223,889
         Total Costs Claimed on Final
         Administrative Cost Proposal                                $59,276,946
         OIG Recommended Ad,justments*                                 (945,610)
         Total Costs after Ad,iustments                              $58,331,336



       OIG = Office ofInspector General

       *See Appendix B




1   WPS did not report any Return on Investment costs
APPENDIX B: OFFICE OF INSPECTOR GENERAL
       RECOMMENDED COST ADJUSTMENTS


                                     Total Part A
                                     Adjustments
Cost Cate20ry                         (FY 2008)
Indirect Costs                             $871,048
Outside Professional Services                39,038
Travel                                       26,496
Miscellaneous                                 7,144
Other                                         1,884
Total OIG Recommended Ad.justments         $945,610
                             APPENDIX C: WPS COMMENTS                                            Page 1 of8
CAIS/                                                                                       Medica:re

                                                      April 14, 2011


 Mr. James C. Cox
 Regional Inspector General for Audit Services
 HHS , Office of Audit Services
 233 North Michigan Avenue, Suite l360
 Chicago, IL 60601

                                                      RE: Draft OIG Report Number A-05-09-00101
                                                          Contract No. HCFA 87-319-1

Dear Mr. Cox: 


In a letter dated March 17, 2011, we received the Office of Inspector General's draft report entitled 

Audit ofMedicare Part-A Administrative Costs for the Period November 5, 2007, Through September 

30, 2008 at Wisconsin Physicians Service Insurance Corporation. In that letter, you requested that we 

respond to you and include a statement of concurrence or non-concurrence for each recommendation. 

WPS has included these statements below in the same order that the recommendations appear in the 

draft report. 


We note that the contract is not subject to the Cost Accounting Standards (CAS), except as referenced 

in Appendix B (10-87) to the contract. 


Home Office Costs 

WPS does not concur with the 010 recommendation to reduce its costs by $857,239 related to the 

revenue components used to determine the allocation of residual home office overhead under the 

three factor formula set forth in CAS 403. Although the referenced contract is not subject to CAS, 

WPS changed its allocation methodology to the CAS formula in response to a CMS directive in 2006, 

prior to WPS' first Medicare Administration Contract (MAC) proposal submission. 


010 references FAR 31.201-2(a), "A cost is allowable only when the cost complies with all of the 

following requirements: (1) Reasonableness. (2) Allocability. (3) Standards promulgated by the CAS 

Board, if applicable, otherwise, generally accepted accounting principles and practices appropriate to 

the circumstances. (4) Terms of the contract ... ". There are no generally accepted accounting 

principles relative to the allocation of home office residual expense. Accordingly, under the terms of 

the contract, any reasonable allocating method should be appropriate. See Contract, Article XII. 


While WPS' Medicare Legacy contract is not subject to CAS, WPS has had other contracts that are 

and have been subject to CAS since the early 1990' s. These contracts have been audited by DCAA, 

WPS ' Cognizant Federal Audit Agency, including CAS 403 audits, Business Proposal audits, and 

Disclosure Statement audits for purposes ofWPS' TRICARE and Medicare MAC contracts, which 

are subject to full CAS. The method of arriving at the component parts of the 3-factor formula 




           Wisconsin Physicians Service Insurance Corporation serving as a CMS contractor
           P.O. Box 1787 • Madison , WI 53701 • Phone 608-221-4711
                                                                                            Page 2 of8
Page 2
Mr. James C. Cox
April 14,2011

including the revenue component was specifically reviewed by DCAA and DCAA has never taken
exception to WPS' allocation methodology for residual home office overhead since the 2006
application of the three factor formula.

WPS' allocation of residual home office overhead expense has been calculated to be compliant with
FAR 31.203. The allocation has been reviewed by DCAA and OIG previously, and has been found to
be reasonable and allowable. While the subject Medicare Part A legacy contract is not subject to
CAS, WPS' allocation of residual home office overhead has been based on CAS 403 since 2006, has
been reviewed by DCAA, and has been found to be CAS compliant.

Provided below is a more detailed explanation supporting WPS allocation calculation for residual
home office overhead using the three factor formula:

WPS disagrees with OIG's contention that WPS' methodology for allocating home office expenses
deviates from CAS 403 and the three factor formula (per FAR 31.203). To the contrary, WPS
believes its allocation methodology for home office expenses is fully compliant with the CAS 403
three factor formula. In response to direction from CMS, WPS changed its methodology for
allocating home office expenses to the CAS 403 three factor formula in 2006. WPS has disclosed this
allocation methodology for home office expenses in its CAS required Home Office Disclosure
Statement. On multiple occasions, DCAA, WPS ' Cognizant Federal Audit Agency (CFAA), has
reviewed WPS' home office allocation methodology and has deemed it reasonable and adequate
(please see attachments 1&2 - DCAA audit of three factor formula). Provided below is a chronology
detailing the history of WPS' home office allocation methodology. It demonstrates that WPS
implemented its current methodology in response to direction from CMS, is compliant with CAS 403 ,
and has been deemed reasonable and adequate by DCAA.

WPS has held numerous CAS covered contracts on a continuous basis with DoD since 1990, under
the OCHAMPUS and TRICARE Managed Care Support programs. In accordance with CAS and the
FAR, DoD was designated the Cognizant Federal Agency Official (CFAO) for WPS' TRICARE
segment and WPS' home office expenses and has been responsible for administering the Cost
Accounting Standards for all of WPS' CAS contracts (See FAR 52.230-6 "Administration of Cost
Accounting Standards"). This single point of control within the government for CAS administration
is required, because the disclosed practices of a contractor must be consistently applied across all of
its CAS covered contracts (See FAR 52.230-2). Having different agencies require different cost
accounting practices under different contracts would violate the consistency requirements of CAS.

Since at least 1990, WPS had allocated CAS 403 home office residual expenses on the basis of total
administrative expense by segment. This allocation methodology was understood and accepted by
both TMA and DCAA. In 2005, CMS directed WPS to revise its allocation methodology for CAS
403 residual home office expenses to the CAS 403 three factor formula, prior to submission of a
MAC proposal.

In 2005, CMS held a conference in Baltimore, prior to the award of the first MAC contract, which
addressed the requirement that all contractors going forward would be subject to CAS. This
conference explained CAS requirements, including Disclosure Statements, established accounting
                                                                                               Page 3 of8
Page 3
Mr. James C. Cox
April 14,2011

practices, Cognizant Federal Audit agencies, and home office expenses (Part 8 of the Disclosure
Statement). CMS also explained that it would require use of the CAS 403 three factor formula for
allocation of residual home office expenses. Unlike other MAC contractors, WPS, under its
TRICARE contracts with the DoD, was already subject to CAS and WPS maintained a CAS
compliant home office allocation. The use of total administrative expense as the allocation base for
the CAS 403 residual pool was identified in WPS' DCAA approved CAS Disclosure Statement for
parts one through eight. DCAA was WPS' Cognizant Federal Audit Agency (for Parts 1-7 TRICARE
Segment and Part 8 Home Office Expenses). At the time of the CMS conference, although not based
on the three factor formula, WPS' home office allocation structure had been reviewed and approved
as CAS-compliant by both the DoD appointed CFAO and DCAA.

CAS requires the application of home office expenses consistently across all government contracts,
regardless of segment. CMS requested the change to the CAS 403 three factor formula for allocation
of residual home office expenses. For calendar year 2006, prior to the award of its first MAC
contract, WPS revised its allocation methodology for residual home office expense to the three factor
formula and updated its Disclosure Statements accordingly. In accordance with FAR 52.230-6, WPS
notified the CFAO of the change through the submission of a revised Disclosure Statement. DCAA,
as the CFAA, subsequently reviewed WPS' revised three factor methodology for allocation of
residual home office expense, and deemed it reasonable and adequate. For multiple audits, on both
Medicare and TRICARE contracts, DCAA and the HHS OIG (Medicare FY 2006) have audited
WPS' allocation of home office expense and have found no significant issues related to the
requirements of CAS 403. In fact, contrary to the OIG's present assertion, DCAA explicitly found
inclusion of benefits payments in revenue as a reimbursed cost to be proper under CAS 403. (See
attachments 1&2-DCAA audit ofthree factor formula).

OIG is specifically questioning the "Revenue" component of the three factor formula. In accordance
with CAS, WPS' definition of "revenue" under the formula is an accurate measure of the total activity
of each segment in relation to the other segments and has been accepted by DCAA in every audit
covering this issue since 2006.

CAS 9904.403-30(3) defines "operating revenue" as including reimbursable costs and fees under
cost-type contracts. WPS' Medicare segment pays both administrative and claim payments out of
WPS accounts and is separately reimbursed by CMS. WPS' TRICARE segment also makes claims
payments out of WPS accounts and is separately reimbursed for those payments. CAS 403 states that
such reimbursable costs are to be included in operating revenue under the three factor formula. WPS
has accounted for the payments of claims for Medicare and TRICARE as a cost, and the
corresponding reimbursement as revenue, on its general ledger since the inception of these business
segments over 40 years ago. In addition, DCAA explicitly found benefits payments to be
reimbursable costs properly included in revenue under the CAS 403 three factor formula. (See
Attachments 1 & 2, DCAA audit of three factor formula). 1

OIG's position is that inclusion of the claims paid as revenue, for Medicare and TRICARE, has the
effect of over-allocating home office expenditures to government contracts. To the contrary, WPS'
position is that the exclusion of the reimbursement for claim payments as revenue would inequitably
and inappropriately understate the allocation of residual home office expense to WPS' Medicare and



1 Office   ofInspector General Note-The attachments were removed because it is proprietary information.
                                                                                          Page 4 of8
Page 4
Mr. James C. Cox
April 14,2011

TRICARE segments that perform administrative services for claims payment contracts. Exclusion
would also contravene WPS' DCAA-approved CAS Disclosure Statements, and the basic purpose of
CAS 403 that "beneficial or causal relationships" between home office expenses and receiving
segments should be the basis for the allocation method selected. An allocation method that distorts
the relative benefits received by WPS' various segments would be inconsistent with the requirements
of the CAS.

CAS9904.403-50( c)(1) identifies "three broad areas of management concern" used in the allocation
formula: the employees of the organization, the business volume, and the capital invested in the
organization. There can be no question that WPS has, is and will always consider its fiduciary
responsibility, related to the payment of claims for our government segments, equal to that of WPS'
commercial segment. Aside from WPS' fiduciary duties, WPS has material positive incentives, error
penalties, and various award fees, related to the accuracy of claim payments for its two government
segments. These financial incentives ensure that WPS approaches the payment of claims equally
across its various business segments, whether they are made on an administrative services basis or an
insured basis. The appropriate, reasonable and consistent position is to consider business volume on
the basis of revenue that covers both administrative and claim costs equally for all segments,
government and commercial. ~IG's position would result in over-allocation of home office expenses
to the commercial side of the business and distortion of the actual costs benefitting WPS' various
business segments.

Claim payments typically run approximately eight times higher than the corresponding administrative
costs necessary to process the claim. OIG's position would mean that, from a business volume
perspective, the WPS commercial risk volume would count eight times that of its Medicare and
TRICARE volume. This approach would lead to an unreasonable result and would be inconsistent
with the intent of the three factor formula to properly reflect the relative business volume among
segments and to achieve an overall allocation base representative of the total activity across all
business segments. While WPS' commercial segment processes approximately 6 million claims
annually, the Medicare and TRICARE segments process over 150 million claims and 60 million
claims, respectively. Yet under OIG's approach, from a business volume perspective, WPS'
commercial business segment would be considered over three times the size of either government
segment.

To further illustrate this point, when comparing the current three factor formula calculation used by
WPS to the methodology used by WPS prior to 2006 (i.e., administrative expenses by business
segment), the allocation rates are materially comparable. Prior to CMS requiring WPS' use of the
three factor formula in 2006 under the MAC contracts, OIG had audited over forty years of Medicare
costs and had never taken exception to WPS' allocation of home office residual expenses. In
contrast, using OIG's approach to the three factor formula calculation would lead to a material change
in allocation results that would not be representative of the actual relative business activity across
WPS' government and commercial business segments.

WPS top management is deeply involved in business operations across all of the company's
segments. To illustrate the need for WPS' top management involvement, several examples of contract
deliverables are provided. Regulatory requirements such as DIACAP, Service Contract Act
Page 5                                                                                             Page 5 of8
Mr. James C. Cox
April 14,2011

compliance, preparation of proposals in response to RFP's, FISMA compliance, Certification
Package for Internal Controls (CPIC), management of government audits including SAS 70 (in 2010
alone, the Medicare Business Segment has had 12 external audits), and contract modifications Gust to
name a few) command a greater proportional share of WPS' top management time than does WPS '
commercial segment.

To summarize, there is no basis for challenging WPS' DCAA-approved allocation methodology for
residual home office overhead under the CAS 403 three factor formula. ~IG's position would lead to
a result contrary to the basic intent of the three factor formula by distorting the allocation of these
costs to WPS' various business segments. WPS' application of the three factor formula has been
fully disclosed to the CFAO and repeatedly approved in government audits. And, there is no basis for
excluding claim payment reimbursement from operating revenue in applying the three factor formula.

Full Time Employees
WPS concurs with the OIG recommendation to reduce its costs by $13,809 related to using an
incorrect FTE allocation caused by using an incorrect formula to calculate the FTE count. WPS is
reviewing the allocation formulas on a quarterly basis to provide reasonable assurance that there are
no errors going forward.

Related Party Transactions.
WPS does not concur with the OIG recommendation to reduce its costs by $28,524 related to profit
for temporary help and technical services provided by a wholly owned subsidiary of WPS. The OIG
overstated the subsidiary's profit by $78,162. The correct profit charged to Medicare is $28,162,
$7,160 of which is related to Part A. The OIG calculation did not consider indirect costs for the
subsidiary as a ratio of all indirect costs to all direct costs, but as a ratio of a subset of indirect costs to
all direct costs resulting in an erroneous indirect rate which overstates the subsidiary profit amount.

WPS agrees to reduce its costs claimed by $7,160 as profit for temporary help and technical services
provided by a wholly owned subsidiary. When the WPS fiscal year end results are final, WPS
evaluates the subsidiary profit or loss and adjusts its costs claimed as appropriate.

Consultant Services

WPS does not concur with the OIG recommendation to reduce its costs by $6,200 for consulting
services. The consultant services were performed under an oral contract agreement. The OIG was
provided the invoice copy backup showing approval of the services provided, hours worked, and rate
of compensation. The total amount paid to this consultant in 2007 and 2008 of $14,627 is much less
than the cost of employing an individual with similar qualifications. Therefore this cost is allowable
under FAR 31.205-33 (d),:

 In determining the allowability ofcosts (including retainer fees) in a particular case, no single factor
or any special combination offactors is necessarily determinative. However, the contracting officer
shall consider thefollowingfactors, among others:

                (1) The nature and scope ofthe service rendered in relation to the service required.
                                                                                            Page 6 of8
Page 6
Mr. James C. Cox
April 14, 2011

               (2) The necessity ofcontractingfor the service, considering the contractor's capability
               in the particular area.

               (3) The past pattern ofacquiring such services and their costs, particularly in the
               years prior to the award ofGovernment contracts.

               (4) The impact ofGovernment contracts on the contractor's business.

               (5) Whether the proportion ofGovernment work to the contractor's total business is
               such as to influence the contractor in favor ofincurring the cost, particularly when the
               services rendered are not ofa continuing nature and have little relationship to work
               under Government contracts.

               (6) Whether the service can be performed more economically by employment rather
               than by contracting.

               (7) The qualifications ofthe individual or concern rendering the service and the
               customary fee charged, especially on non-Government contracts.

               (8) Adequacy ofthe contractual agreement for the service (e.g., description ofthe
               service, estimate oftime required, rate ofcompensation, termination provisions).

Legal Services
WPS concurs with the OIG recommendation to reduce its costs by $3,805 for legal expenses for
protest fees relating to a Medicare Administrative Contractor bid which were not requested by the
contracting officer. WPS will include future protest fees in its protest cost center, which are not
claimed for reimbursement under this contract.

Investment Administrative Fees
WPS concurs with the OIG recommendation to reduce its costs by $509 for investment administrative
fees related to a 401(k) plan. The employees in the plan who are not part of the Medicare division will
have their 401k administrative fees charged based on the Medicare allocation for their cost center.

Leased Vehicles
WPS concurs with the OIG recommendation to reduce its costs by $25,478 related to the personal use
of company furnished leased vehicles. WPS now excludes these costs as unallowable costs.



WPS does not concur with the OIG recommendation to reduce its costs by $777 for meals provided
during a board of directors meeting. Incidental costs associated with board of director meetings are
allowable under FAR 31.205-28 ("the following types ofrecurring costs are allowable: (f) Incidental
costs of directors' and committee meetings ''). WPS concurs with reducing its costs by $25 for the
alcohol served with the meal. WPS will classify any alcohol purchase as "entertainment", which is
not claimed for reimbursement from the government.
Page 7                                                                                   Page 7 of8
Mr. James C. Cox
April 14,2011

WPS does not concur with the OIG recommendation to reduce its costs by $241 for meals provided to
executives. These expenses are indirect costs in the General Administrative cost pool and are
allocated to Medicare in the same manner used for all General Administrative costs in accordance
with FAR 31.203(c):

 The contractor shall accumulate indirect costs by logical cost groupings with due consideration of
the reasons for incurring such costs. The contractor shall determine each grouping so as to permit
use of an allocation base that is common to all cost objectives to which the grouping is to be
allocated. The base selected shall allocate the grouping on the basis of the benefits accruing to
intermediate and final cost objectives. When substantially the same results can be achieved through
less precise methods, the number and composition ofcost groupings should be governed by practical
considerations and should not unduly complicate the allocation.

As indicated in the above referenced FAR provision, it is not appropriate to "cherry-pick" individual
expense items out of an indirect pool for disallowance and then pay only a fraction of the Medicare
specific expenses in the same pool.

WPS agrees to reduce its costs claimed by $39 for the meal costs for which it has no receipts. WPS
will review expense reports for receipts and request a signed affidavit from the traveler for amounts
not supported with a receipt.

Gifts and Gift Cards

 WPS does not concur with the OIG recommendation to reduce its costs by $4,700 for gifts and gift
 cards. The gift cards were provided under a WPS policy in recognition for years of service in the
 Medicare line of business. As these are earned by employees through length of service in the
 Medicare program, they are allowable as compensation. See FAR 31.205-6(f)(i) ("Awards are paid or
accrued under an agreement entered into in good faith between the contractor and the employees
 before the services are rendered or pursuant to an established plan or policy followed by the
 contractor so consistently as to imply, in effect, an agreement to make such payment; and (ii) Basis
for the award is supported.")

The gifts are incidental mementos related to WPS' annual all employee meeting to encourage
attendance and to help employees remember goals. The company president and senior executives
address the employees on the company's accomplishments over the previous year, current and future
goals, and motivate employees to meet the company's current and future goals. These costs are
allowable under FAR 31.205-13(a) ("Aggregate costs incurred on activities designed to improve
working conditions, employer-employee relations, employee morale, and employee performance (less
income generated by these activities) are allowable '')

Meals and Beverages
WPS does not concur with the OIG recommendation to reduce its costs by $2,444 for meals and
beverages. The meals and beverages are related to WPS' annual all employee meeting. The company
president and senior executives address the employees on the company's accomplishments over the
previous year, current and future goals, and motivate employees to
                                                                                   Page 8 of8
Page 8
Mr. James C. Cox
April 14,2011

meet the company' s current and future goals. These costs are allowable under FAR 31.205-J3(a),
Aggregate costs incurred on activities designed to improve working conditions, employer­
employee relations, employee morale, and employee performance (less income generated by
these activities) are allowable.

Membership Dues 

WPS does concur with the OIG recommendation to reduce its costs by $1,433 for membership 

dues to attend social events. WPS excludes these costs as unallowable costs. 


Lobbying 

WPS does concur with the OIG recommendation to reduce its costs by $451 for lobbing costs. 

WPS now includes these costs in its lobbying cost center, which are not claimed for 

reimbursement. 


Other Topic Not Discussed in the Audit Report 

As discussed with the OIG, certain equipment items acquired in connection with the Part-A 

contract in the amount of$269,221 were claimed under Part-B and should be reclassified as Part­

A costs. These costs are not included in Appendix C: Comparison of Administrative Costs 

Reported to Budget Authorization schedule. 


Thank you for the opportunity to comment, please contact me at (608) 301-2639 or e-mail me at 

J ared .Adajr((I~ w.p§i~.COll.l if you have any questions. 


                                           Sincerely,
